No. 19-251

 

 

IN THE

Supreme Court of the Anited States

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,

Vv.

MATTHEW RODRIQUEZ, IN HIS OFFICIAL CAPACITY AS
THE ACTING ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,980 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 16, 2021.

Colin Casey Crocan

Wilson-Epes Printing Co., Inc.
